                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: 1-02100026



      In October, 2002, the complainant' contacted the Grant Program Office? and advised him that
      the parent company3had declared bankruptcy after cleaning out all of the bank accounts
      including money from the grant. The Program Oficer suspended all further grant payments until
      the situation could be evaluated.

      Over the past few months, the complainant has submitted updated statements to indicate that the
      mis-appropriated funds had been recovered and all of the grant funds were accounted fir.
      Although there was some initial concern over the rates charged against the grants for labor
      charges, subsequent documentation received has addressed those concerns and it is evident that
      the funds provided for the research identified in the Grant have been used for that purpose. It is
      also noted that the United States Bankruptcy Court Trustee4has approved all of the financial
      transactions.

      The complainant is actively involved in the re-organization of the subject company5and helpful
      in providing documentation to prove that the grant money has been accounted for and that the
      work approved under the grant is continuing.

      Based on the information contained above, it is the conclusion of this investigator that although
      this investigation initially involved the possible theft of grant funds, all monies associated with
      the grant that have been released to date have been accounted for and there is no evidence of any
      wrong doing on the part of the subject company. The Program Officer has been notified of the
      outcome of our investigative findings.

      Accordingly, this case is closed.




                       Investigator              Attorney                Supervisor                   AIGI

  Sign l date

                                                                                        NSF OIG Form 2 (1 1/02)
